HHS/OIG - Audit,"Review of Fiscal Year 2001 Financial Statement Activity at Empire Medicare Services,"A-02-01-01022)
Department
of Health and Human Services
"Review of Fiscal Year 2001 Financial Statement Activity at Empire Medicare Services," (A-02-01-01022)
May 7, 2002
Complete
Text of Report is available in PDF format (4.56 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this aspect of the review were to assess the accounting controls related to the reconciliation of paid
claims and the financial activity reports, verify the accuracy of financial activity that contributed to the preparation
of the Fiscal Year (FY) 2001 combined financial statements for the Centers for Medicare & Medicaid Services (CMS),
and determine the status of findings resulting from the 1998 and 1999 Chief Financial Officer audits.  Our audit period
was from January 1, 2001 through June 30, 2001.  We found that the accounting controls were generally adequate and
that the reconciliation was substantially accurate, supportable and complete.  We found, however, that accounting
controls over certain financial activities need to be strengthened in order to prevent misstatements of the CMS financial
statements.